                The Selection of Earned Income Tax Credit
               Returns for Examination Can Be Improved to
                  Further Prevent Erroneous Payments

                                   October 2003

                       Reference Number: 2004-40-004




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     October 30, 2003


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Assistant Inspector General for Audit (Small Business and
                                     Corporate Programs)

       SUBJECT:                      Final Audit Report - The Selection of Earned Income Tax Credit
                                     Returns for Examination Can Be Improved to Further Prevent
                                     Erroneous Payments (Audit # 200340039)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       selection of Earned Income Tax Credit (EITC) cases for examination. The overall
       objective of our review was to determine whether the IRS’ process for selecting EITC
       cases for examination is providing the best effect on compliance and fairness to
       taxpayers. Specifically, we determined if the Dependent Database1 examination case
       selection process for EITC returns results in the greatest benefit at the least cost
       (cost-benefit)2 while ensuring taxpayers are treated fairly and uniformly under the law.
       The EITC is a major Federal Government effort to assist the working poor. The IRS has
       the responsibility for administering the EITC, which is a refundable credit available to
       taxpayers who file returns with certain earned income. Historically, the EITC Program
       has been vulnerable to high rates of noncompliance (overclaims).3 Based on an IRS
       report, an estimated $8.5 to $9.9 billion (27 to 32 percent) of the estimated $31.3 billion
       in EITC claims made by taxpayers for Tax Year 1999 should not have been paid.
       The mission of the EITC Program is to ensure that eligible taxpayers receive the EITC
       and that unsubstantiated claims are eliminated. One of the major goals of the EITC

       1
         The Dependent Database is a computer system used to, among other things, identify and select for examination tax
       returns with possible erroneous EITC claims. Selection is based upon criteria developed into a comprehensive set of
       rules used to score the returns.
       2
         Cost-benefit is defined as providing the most benefit to the Federal Government at the least cost (i.e., selecting
       examinations that use the least resources (costs) while protecting the most revenue).
       3
         An EITC overclaim is the amount of the EITC claimed by a taxpayer above the amount to which he or she is
       entitled.
                                                          2

Program is to “implement a balanced compliance program to increase voluntary
compliance.” The Dependent Database examination case selection process is part of
that balanced compliance program and is focused on selecting taxpayers whose EITC
claims based on qualifying children may be unsubstantiated.
The IRS has a good process for evaluating the results of the Dependent Database case
selection process that allows for necessary adjustments to be made. In addition, the
types of returns selected for examination through the Dependent Database process are
representative of taxpayers who claim the EITC based on qualifying children. However,
the IRS cannot determine if the selection process ensures that resources are being
used to provide the greatest cost-benefit because it does not use cost data and yield in
the evaluation of the case selection process. Use of cost-benefit data in its evaluation
process would help assure the IRS that its selection process provides the most
productive combination of returns for examination.
We recommended that the Commissioner, Wage and Investment (W&I) Division,
complete an analysis of closed Dependent Database examination cases to determine if
relationships exist among direct examination time,4 rules identified, and disposition of
the examinations. If a relationship exists, cost-benefit data based on this relationship
should be incorporated into the criteria used to score tax returns. If no relationship
exists, an average cost of examinations should be used to conduct the cost-benefit
analysis. The Commissioner, W&I Division, should also incorporate the cost-benefit
analysis into the Dependent Database Risk-Based Scoring Model planned for
implementation in January 2004.
Management’s Response: IRS management agreed with our recommendations. The
Director, Reporting Compliance, W&I Division, will analyze Fiscal Year (FY) 2003
Dependent Database closed case data and attempt to group returns by rules broken
and assign costs to those groups. The Director, Reporting Compliance, W&I Division,
also will incorporate a cost-benefit analysis into the Dependent Database selection
process; however, IRS management stated that they would be unable to do so until
January 2005. Although IRS management agreed with our recommendations, they did
not concur with our outcome measure of $20.9 million in additional overclaims that
could have been protected. The IRS stated that it needs to conduct a comprehensive
analysis using complete FY 2003 data to make this determination. We agree that we
did not use complete FY 2003 data to calculate our outcome. However, the outcome
was calculated using a significant portion of the FY 2003 data. We also used cost and
examination outcome data provided by the IRS. Therefore, we believe our calculation
of the additional overclaims that could be protected is reasonable. Management’s
complete response to the draft report is included as Appendix VII.



4
  Direct examination time is the time that can be directly applied to the examination of a return and does not include
time for overhead activities such as mailing, receiving, and delivering correspondence related to the examination.
                                          3

Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
              The Selection of Earned Income Tax Credit Returns for Examination
                   Can Be Improved to Further Prevent Erroneous Payments




                                                Table of Contents


Background ............................................................................................... Page 1
The Examination Selection Process Is Strategically Aligned
With the Goals of the Program and Is Evaluated Regularly....................... Page 3
Additional Performance Data Are Needed to Ensure the
Examination Selection Process Is Selecting the Most
Productive Returns for Examination ......................................................... Page 6
         Recommendations 1 and 2: ............................................................ Page 9

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 11
Appendix II – Major Contributors to This Report........................................ Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Outcome Measures ............................................................ Page 15
Appendix V – The Dependent Database Scoring Program ....................... Page 17
Appendix VI – Cost-Benefit Analysis ......................................................... Page 19
Appendix VII – Management’s Response to the Draft Report ................... Page 23
             The Selection of Earned Income Tax Credit Returns for Examination
                  Can Be Improved to Further Prevent Erroneous Payments

                                   The Earned Income Tax Credit (EITC), a major Federal
Background
                                   Government effort to assist the working poor, is a
                                   refundable credit available to taxpayers who file returns
                                   with certain earned income. The Internal Revenue Service
                                   (IRS) is responsible for administering the EITC.
                                   The Congress has long been concerned with the
                                   administration of the EITC Program. The IRS estimated
                                   that between $8.5 and $9.9 billion (27 to 32 percent) of the
                                   $31.3 billion in EITC claimed for Tax Year (TY) 1999 was
                                   in error.1 One of the main causes for these errors was
                                   taxpayers claiming children who did not meet the
                                   qualifications for the EITC. Children used by taxpayers to
                                   qualify for the EITC must meet relationship, age, and
                                   residency tests.
                                   In an attempt to address EITC errors, the Congress passed
                                   the Taxpayer Relief Act of 1997 (TRA 97),2 which provided
                                   a means for the IRS to improve its examination selection
                                   process. The TRA 97 includes a provision that gives the
                                   Department of the Treasury access to data collected by the
                                   Department of Health and Human Services (HHS).
                                   The IRS developed a computer system, known as the
                                   Dependent Database, to incorporate the data acquired from
                                   the HHS into the processing of individual tax returns. The
                                   IRS also incorporated criteria from its original examination
                                   selection process, known as the Electronic Fraud Detection
                                   System, which uses common characteristics from past
                                   erroneous EITC claims as the basis for selecting tax returns
                                   for examination.
                                   The IRS uses the Dependent Database to identify and select
                                   for examination those tax returns with possible erroneous
                                   EITC claims (EITC overclaims).3 During the examination
                                   selection process, the Dependent Database scoring program
                                   first analyzes tax returns that have claimed at least one
                                   EITC-qualifying child or dependent child. Using data from
                                   several sources, it analyzes each tax return for criteria that


                                   1
                                     IRS report titled Compliance Estimates for Earned Income Tax Credit
                                   on 1999 Returns, dated February 28, 2002.
                                   2
                                     Pub. L. No. 105-34, 111 Stat. 961 §§ 1090(a) and 1090(b).
                                   3
                                     An EITC overclaim is the amount of the EITC claimed by a taxpayer
                                   above the amount to which he or she is entitled.
                                                                                                 Page 1
The Selection of Earned Income Tax Credit Returns for Examination
     Can Be Improved to Further Prevent Erroneous Payments

                      indicate the taxpayer might not be eligible for the EITC and
                      assigns a numeric value to each criterion. These criteria
                      were developed into a comprehensive set of rules used to
                      score the returns. The Dependent Database then produces
                      an overall score for each return based on the rules that apply
                      to that return.
                      Based on resources available to conduct examinations, the
                      IRS selects certain types and quantities of returns for
                      examination to verify taxpayers’ eligibility for the EITC.
                      Appendix V provides additional information on the
                      Dependent Database scoring process.
                      Once the examination selection process is complete, returns
                      selected by the Dependent Database are examined before a
                      refund is sent to the taxpayer. This is known as a pre-refund
                      examination. The IRS Wage and Investment (W&I)
                      Division conducts examinations of returns on which
                      taxpayers claimed wages to qualify for the EITC, and the
                      Small Business/Self-Employed (SB/SE) Division conducts
                      examinations of returns on which taxpayers claimed
                      self-employment income to qualify for the EITC.
                      For the most part, EITC examinations are handled as
                      correspondence examinations (i.e., through the mail).
                      Correspondence examinations can be completed in a few
                      hours, are limited in scope to a few issues, and do not
                      include a review of detailed accounting records.
                      The IRS plans to expand its use of the Dependent Database
                      to include selecting taxpayers who must certify their
                      eligibility for the EITC either before the return is filed or at
                      the time the return is filed for TY 2003. It is also studying
                      the feasibility of developing rules to identify other issues,
                      such as charitable deductions, education credits, child
                      credits, and child care credits, to select non-EITC returns for
                      examination.
                      We conducted this audit to determine whether the IRS’
                      process for selecting EITC claims for examination provides
                      the best effect on compliance and fairness to taxpayers.
                      Specifically, we determined if the Dependent Database
                      examination case selection process for EITC returns results



                                                                               Page 2
            The Selection of Earned Income Tax Credit Returns for Examination
                 Can Be Improved to Further Prevent Erroneous Payments

                                   in the greatest cost-benefit4 while ensuring taxpayers are
                                   treated fairly and uniformly under the law. We did not
                                   determine if the rules being used by the Dependent Database
                                   to select returns are the most efficient, nor did we determine
                                   if the Database uses all information available to the IRS
                                   when scoring and selecting returns for examination.
                                   This audit was performed between February and
                                   June 2003. The review included visits to the Office of
                                   Compliance and the EITC Program Office in the
                                   W&I Division Headquarters in Atlanta, Georgia, and the
                                   Office of Compliance in the SB/SE Division Headquarters
                                   in Washington, D.C. The audit was conducted in
                                   accordance with Government Auditing Standards. Detailed
                                   information on our audit objective, scope, and methodology
                                   is presented in Appendix I. Major contributors to the report
                                   are listed in Appendix II.
                                   The Dependent Database examination selection process
The Examination Selection
                                   supports the mission of the IRS EITC Program and provides
Process Is Strategically Aligned
                                   a balanced Examination inventory. The IRS also has a good
With the Goals of the Program
                                   process to evaluate whether the selection process chose the
and Is Evaluated Regularly
                                   desired types of cases and to make any necessary changes.
                                   The examination selection process focuses on the goals
                                   and strategies of the EITC Program
                                   The mission of the EITC Program is to ensure that eligible
                                   taxpayers receive the EITC and unsubstantiated claims are
                                   eliminated. One of the major goals of the EITC Program is
                                   to “implement a balanced compliance program to increase
                                   voluntary compliance.” The IRS also has a strategy to
                                   develop an enhanced initiative to reduce EITC overclaims
                                   by developing cross-divisional Examination strategies that
                                   quickly react to changing EITC compliance trends.
                                   IRS employees explained that the goals of the Dependent
                                   Database examination selection process are to better identify
                                   and select noncompliant EITC returns for examination,
                                   provide a balance between the no-change rate and agreed



                                   4
                                     Cost-benefit is defined as providing the most benefit to the Federal
                                   Government at the least cost (i.e., selecting examinations that use the
                                   least resources (costs) while protecting the most revenue).
                                                                                                     Page 3
The Selection of Earned Income Tax Credit Returns for Examination
     Can Be Improved to Further Prevent Erroneous Payments

                      rate,5 and provide coverage of high-risk areas of EITC
                      claims. This supports the mission of the EITC Program to
                      ensure that eligible taxpayers receive the EITC and
                      unsubstantiated claims are eliminated. Selection of the
                      EITC examination case workload through the Dependent
                      Database also results in a cross-divisional Examination
                      program providing returns for examination by both the
                      SB/SE and W&I Divisions.
                      Analyses of the Dependent Database and EITC claimant
                      population showed the returns selected reflect the
                      characteristics that the IRS has identified as being
                      potentially erroneous. In addition, the returns selected
                      reflect the characteristics of the overall population of
                      taxpayers that claimed the EITC. Both support the IRS’
                      goals to better identify and select noncompliant EITC
                      returns for examination and to provide coverage of high-risk
                      areas of EITC claims.
                      In its evaluation of compliance on TY 1999 returns with
                      EITC claims, the IRS determined that the largest area of
                      noncompliance was taxpayers who claimed qualifying
                      children that they were not entitled to claim. The
                      Dependent Database is designed to detect this area of
                      noncompliance. An analysis of the IRS Individual Master
                      File6 for TYs 2000 and 2001 showed that the characteristics
                      of the rules applied during the Dependent Database scoring
                      process are representative of the types of errors made by
                      taxpayers claiming qualifying children when claiming the
                      EITC.
                      In addition, returns selected for examination through the
                      Dependent Database process generally reflect the makeup of
                      the EITC-qualifying child population. In TYs 2000 and
                      2001, over 98 percent of the returns filed claiming an
                      EITC-qualifying child also claimed a dependent. For these
                      2 years, over 97 percent of the returns selected using the


                      5
                        The no-change rate is the percentage of examinations that did not
                      result in changes to the tax returns. The agreed rate is the percentage of
                      examinations in which taxpayers agreed with the IRS’ adjustments to
                      their tax returns.
                      6
                        The IRS database that maintains transactions or records of individual
                      tax accounts.
                                                                                        Page 4
The Selection of Earned Income Tax Credit Returns for Examination
     Can Be Improved to Further Prevent Erroneous Payments

                      Dependent Database claimed an EITC-qualifying child and
                      a dependent.
                      Although the IRS selects returns that reflect the majority of
                      the EITC-qualifying child population, it also selects returns
                      in categories that have been identified as having a
                      historically high risk for noncompliance (i.e., claiming the
                      EITC when the taxpayer does not qualify). Two categories
                      of return selection include income and filing status issues.
                      Selection of examination case workload is also dependent
                      on the number of resources available to conduct
                      examinations.
                      The examination selection process is regularly evaluated
                      and changes are made when necessary
                      The IRS periodically evaluates and refines the Dependent
                      Database scoring and selection processes. Annually, the
                      IRS conducts research on the results of examinations from
                      each tax return processing year and uses these results to
                      determine if the Dependent Database is selecting the desired
                      types of returns for examination. The IRS also monitors
                      and modifies the Dependent Database examination selection
                      process as the filing season7 progresses.
                      The IRS uses its annual analyses to make enhancements to
                      the Dependent Database examination selection process.
                      Because examination cases can take several months to
                      complete, changes to the selection process for an upcoming
                      processing year are based on examination results from
                      2 years prior. For example, enhancements to the Dependent
                      Database process for TY 2002 returns were based on the
                      IRS’ analysis of examinations of TY 2000 returns.
                      The IRS uses its analysis in an attempt to continually
                      improve the Dependent Database examination selection
                      process. In addition to modifying the scoring and selection
                      criteria to choose more returns that break multiple rules, the
                      IRS has also:
                      •   Initiated a study of taxpayers whose returns have broken
                          rules in multiple years but were not selected for
                          examination.

                      7
                        The period from January through mid-April when most individual
                      income tax returns are filed.
                                                                                   Page 5
            The Selection of Earned Income Tax Credit Returns for Examination
                 Can Be Improved to Further Prevent Erroneous Payments

                                   •   Initiated a project, called the Risk-Based Scoring Model,
                                       to better align the number of points a return receives in
                                       the Dependent Database scoring process to the
                                       likelihood that the EITC or tax liability would be
                                       adjusted as a result of an examination.
                                   While the IRS has a good process for evaluating the
Additional Performance Data
                                   Dependent Database examination selection process to
Are Needed to Ensure the
                                   determine if it is choosing the desired types of returns, the
Examination Selection Process
                                   IRS could improve the process by also considering the costs
Is Selecting the Most Productive
                                   directly associated with and the yield8 expected from
Returns for Examination
                                   examining the returns (cost-benefit). This would allow the
                                   IRS to identify which examinations provide the best
                                   cost-benefit and are the most productive (i.e., which
                                   examinations cost the least to work while protecting the
                                   most revenue). When selecting examinations, the IRS takes
                                   into consideration the following factors:
                                   •   The historical no-change rate and the agreed rate on tax
                                       returns examined for each rule in the scoring process.
                                   •   The balance in coverage among the various selection
                                       criteria and types of returns being selected.
                                   •   The historical compliance patterns for different types of
                                       returns.
                                   In addition, the IRS generally incorporates a tolerance into
                                   its EITC examination selection process. Specifically, the
                                   IRS does not select for examination returns on which the
                                   EITC falls below a certain dollar amount.
                                   Currently, IRS systems do not adequately capture the costs
                                   or time to examine specific types of returns. Both of these
                                   factors are needed to determine how much it costs the IRS
                                   to examine specific types of returns. The IRS’ financial
                                   tracking systems do not adequately capture specific cost
                                   data related to conducting various types of examinations,
                                   including EITC examinations selected through the
                                   Dependent Database. Its Audit Information Management
                                   System (AIMS), the automated system the IRS uses for
                                   examination case workload management, does capture


                                   8
                                     Yield refers to the dollar amount of adjustments made to the tax
                                   returns that resulted in EITC overclaims protected.
                                                                                                    Page 6
The Selection of Earned Income Tax Credit Returns for Examination
     Can Be Improved to Further Prevent Erroneous Payments

                      examination time applied directly to examining tax returns.
                      However, the IRS does not believe the time captured on the
                      AIMS is a true measure of the time it takes IRS employees
                      to examine tax returns because examiners track their time
                      only in 10-minute intervals. Also, the IRS considers clerical
                      time a key factor in processing cases; however, the AIMS
                      does not track this time.
                      The IRS stated that should it be able to adequately track the
                      time spent examining returns, time from prior closed
                      examinations still could not be used to predict how much
                      time it will take to examine returns with the same issues.
                      Therefore, it may not be able to introduce cost and time into
                      the examination selection process.
                      We agree that there are many factors that influence how
                      long it takes to complete an examination of tax returns,
                      including, for example, the number of issues or questions on
                      the returns and taxpayer behavior. Taxpayer behavior is a
                      significant factor in Examination cases. Specifically, IRS
                      examiners work fewer hours examining a tax return when
                      taxpayers do not respond, or do not respond with adequate
                      support for documents requested, than they do when
                      taxpayers make multiple contacts with the IRS or the
                      examiners have to ask for additional information. In
                      addition, taxpayer behavior cannot always be directly linked
                      to issues or the final resolution of cases (i.e., no-change,
                      agreed, unagreed, or with no response from the taxpayer).
                      However, the IRS does not know if there is any relationship
                      among the time to examine returns, the issue or number of
                      issues questioned on returns, or the disposition of the
                      examination because it has not done an analysis to
                      determine this relationship. This type of analysis might
                      allow the IRS to use historical data to introduce cost-benefit
                      results into the overall scoring for EITC returns.
                      Although the IRS does not capture specific cost data for the
                      different types of examinations, the IRS was able to provide
                      us with an estimated average cost of $185.32 for each EITC
                      examination. This amount includes the cost to conduct all
                      EITC examinations, including pre- and post-refund EITC



                                                                             Page 7
The Selection of Earned Income Tax Credit Returns for Examination
     Can Be Improved to Further Prevent Erroneous Payments

                      examinations, as well as those examinations conducted
                      through other EITC compliance programs.9
                      Using these estimated cost data, we conducted an analysis
                      comparing the cost and yield of the TY 2001 tax returns
                      selected by the Dependent Database for examination
                      between January and August 2002. Our analysis showed
                      that the IRS could have protected approximately
                      $20.9 million in additional erroneous EITC claims if it
                      had incorporated examination costs and yield into its
                      examination selection process. Detailed information on
                      our analysis can be found in Appendix VI.
                      General cost data provided by the IRS show that it cost
                      the IRS approximately $31 million to conduct EITC
                      examinations of TY 2001 returns selected by the Dependent
                      Database process from January to August 2002.
                      Program-specific cost-benefit data would provide the IRS
                      better assurance that its selection process results in the use
                      of those funds to achieve the best outcome from its
                      Dependent Database examinations.
                      Results of a cost-benefit analysis should be part of the
                      criteria for the rules used by the Dependent Database to
                      score returns for examination selection. Adding cost-benefit
                      data into the criteria used for the rules would not only
                      provide the IRS a better means to determine if it is selecting
                      the cases with the best potential for protecting EITC
                      overclaims, it would also provide the IRS an effective
                      method for integrating its budget with its program
                      performance. The Government Performance and Results
                      Act of 1993 (GPRA)10 and The President’s Management
                      Agenda, Fiscal Year 2002,11 both require Federal
                      Government agencies to link their budgets and their
                      evaluations of program performance. In addition, the
                      General Accounting Office has reported the need to develop
                      reliable cost-benefit data to estimate the tax revenue

                      9
                        Pre-refund examinations account for the majority of EITC
                      examinations.
                      10
                         Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                      sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                      11
                         Executive Office of the President, Office of Management and Budget,
                      The President’s Management Agenda, Fiscal Year 2002
                       (Washington, D.C.: August 2001).
                                                                                    Page 8
The Selection of Earned Income Tax Credit Returns for Examination
     Can Be Improved to Further Prevent Erroneous Payments

                      collected by the IRS for each dollar spent pursuing these
                      amounts.12 The Treasury Inspector General for Tax
                      Administration has also reported the need to develop
                      performance measures linking results to the funds
                      requested.13

                      Recommendations

                      The Commissioner, W&I Division, should:
                      1. Complete an analysis of the historical Dependent
                         Database examination data to determine if there is a
                         relationship among the direct examination time, rules
                         identified, and disposition of examinations. If there is a
                         relationship, cost-benefit data should be incorporated
                         into the criteria used in the rule score for the Dependent
                         Database case selection process. Absent a relationship,
                         an average cost of examinations should be used to
                         conduct a cost-benefit analysis to incorporate into the
                         rule score.
                      Management’s Response: The Director, Reporting
                      Compliance, W&I Division, will analyze Fiscal Year (FY)
                      2003 Dependent Database closed case data and attempt to
                      group returns by rules broken and assign costs to those
                      groups.
                      2. Incorporate a cost-benefit analysis into the Dependent
                         Database Risk-Based Scoring Model planned for
                         implementation in January 2004.
                      Management’s Response: The Director, Reporting
                      Compliance, W&I Division, will incorporate a cost-benefit
                      analysis into the Dependent Database selection process;
                      however, IRS management stated that it would be unable to
                      do so until January 2005.
                      The IRS did not agree with our assessment that an
                      additional $20.9 million in overclaims could have been

                      12
                         Status of GAO Recommendations from Prior IRS Financial Audits
                      and Related Management Reports (GAO-03-655, dated May 2003).
                      13
                         The Internal Revenue Service Should Continue to Develop Its
                      Measures Program to Ensure That Its GPRA Measures Cover All
                      of the Major Components of Tax Administration (Reference
                      Number 2002-10-097, dated May 2002).
                                                                                  Page 9
The Selection of Earned Income Tax Credit Returns for Examination
     Can Be Improved to Further Prevent Erroneous Payments

                      protected. The IRS stated it needs to conduct a
                      comprehensive analysis using complete FY 2003 data,
                      which are not yet available, to make this determination.
                      Office of Audit Comment: We agree that we did not use
                      complete FY 2003 data to compute the $20.9 million in
                      overclaims that could have been protected. Complete data
                      were not available at the time of our review. However, our
                      calculation was based on a significant portion of the year’s
                      data. Our estimate was also calculated using cost and
                      examination outcome data provided by the IRS. Therefore,
                      we believe our calculation of the additional overclaims that
                      could be protected is reasonable.




                                                                           Page 10
              The Selection of Earned Income Tax Credit Returns for Examination
                   Can Be Improved to Further Prevent Erroneous Payments

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service’s
(IRS) process for selecting Earned Income Tax Credit (EITC) cases for examination is providing
the best effect on compliance and fairness to taxpayers. Specifically, we determined if the
Dependent Database1 examination case selection process for EITC returns results in the greatest
benefit at the least cost (cost-benefit)2 while ensuring taxpayers are treated fairly and uniformly
under the law.
We conducted the following tests to accomplish the objective:
I.      To determine if the Dependent Database examination selection process focuses on
        the goals and strategies established by the EITC Examination Program, we identified
        the IRS’ overall goals for the EITC Examination Program. We also interviewed
        personnel in the Office of Compliance and the EITC Program Office in the Wage and
        Investment Division Headquarters and the Office of Compliance in the Small Business/
        Self-Employed Division to determine the Dependent Database examination case selection
        program’s goals.
II.     To determine if the IRS has an effective process to evaluate the results of its Dependent
        Database examination selection process and make necessary adjustments to the process,
        we identified and reviewed analyses performed by the IRS to evaluate the results of
        EITC examinations. We also determined how the IRS calculates program measures and
        results, including the no-change rate3 and EITC overclaims4 protected. We determined
        the process used to implement changes to the Dependent Database examination selection
        process.
III.    To determine if the Dependent Database examination selection process ensures resources
        are being used to provide a balanced compliance program (i.e., the greatest cost-benefit
        while ensuring taxpayers are treated fairly and uniformly under the law), we:
        A. Determined whether the Dependent Database examination selection process could
           provide a greater cost-benefit by analyzing the Tax Year (TY) 2001 data for
           EITC examination closed cases on the Dependent Database. We obtained related


1
  The Dependent Database is a computer system used to, among other things, identify and select for examination tax
returns with possible erroneous EITC claims. Selection is based upon criteria developed into a comprehensive set of
rules used to score the returns.
2
  Cost-benefit is defined as providing the most benefit to the Federal Government at the least cost (i.e., selecting
examinations that use the least resources (costs) while protecting the most revenue).
3
  The no-change rate is the percentage of examinations that did not result in changes to the tax returns.
4
  An EITC overclaim is the amount of the EITC claimed by a taxpayer above the amount to which he or she is
entitled.
                                                                                                           Page 11
             The Selection of Earned Income Tax Credit Returns for Examination
                  Can Be Improved to Further Prevent Erroneous Payments

            information from the copy of the Audit Information Management System5 at the
            Treasury Inspector General for Tax Administration Data Center Warehouse. We
            stratified the closed cases by various rule groupings and type of income claimed and
            determined how the IRS calculates the cost of conducting Dependent Database
            EITC examinations. We computed the cost-benefit for each group of returns and
            performed analyses to vary the number of returns selected per group to optimize the
            benefit.
        B. Determined whether the Dependent Database examination selection process is
           ensuring taxpayers are treated fairly and uniformly under the law by analyzing and
           comparing the characteristics of taxpayers selected for examination to the
           characteristics of the overall population of taxpayers that claimed the EITC for
           TYs 2000 and 2001.




5
 The Audit Information Management System is an automated computer system used for examination case workload
management.



                                                                                                   Page 12
           The Selection of Earned Income Tax Credit Returns for Examination
                Can Be Improved to Further Prevent Erroneous Payments

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Deann L. Baiza, Audit Manager
Areta G. Heard, Senior Auditor
Doris J. Hynes, Senior Auditor
Alan Lund, Senior Auditor
Robert J. Carpenter, Senior Information Technology Specialist
Debra Morgan, Information Technology Specialist




                                                                                         Page 13
           The Selection of Earned Income Tax Credit Returns for Examination
                Can Be Improved to Further Prevent Erroneous Payments

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Earned Income Tax Credit, Wage and Investment Division SE:W:EITC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Earned Income Tax Credit Program Manager, Wage and Investment Division SE:W:EITC
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM




                                                                                 Page 14
              The Selection of Earned Income Tax Credit Returns for Examination
                   Can Be Improved to Further Prevent Erroneous Payments

                                                                                                   Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Funds Put to Better Use – Potential; $20.9 million additional Earned Income Tax Credit
    (EITC) overclaims1 protected for Tax Year 2001 returns (see page 6).
Methodology Used to Measure the Reported Benefit:
This outcome represents the projected additional EITC overclaims protected if the Internal
Revenue Service (IRS) incorporated cost-benefit data2 into its evaluation of the selection of
returns claiming the EITC using the Dependent Database.3
The IRS used the Dependent Database scoring and selection program to select 168,290 returns
for EITC pre-refund examinations from January through August 2002, protecting an estimated
$419.6 million in EITC overclaims.
By incorporating cost-benefit into its selection criteria, the Dependent Database scoring and
selection program’s selection of 168,290 returns for examination could have protected an
estimated $440.5 million in EITC overclaims ($20.9 million more in estimated EITC overclaims)
during the same processing period.
To develop a cost-benefit selection model using return on investment (ROI) analysis:
•   A total of 75,165 closed EITC examination cases were reviewed:
        − The examined returns were stratified into groups based on Dependent Database
          rule(s) broken.
        − The ROI per return group was computed by dividing the EITC overclaims
          protected in each group by the cost to examine the group. An average examination
          cost of $185.32 provided by the EITC Program Office was used in this computation.



1
  An EITC overclaim is the amount of the EITC claimed by a taxpayer above the amount to which he or she is
entitled.
2
  Cost-benefit is defined as providing the most benefit to the Federal Government at the least cost (i.e., selecting
examinations that use the least resources (costs) while protecting the most revenue).
3
  The Dependent Database is a computer system used to, among other things, identify and select for examination tax
returns with possible erroneous EITC claims. Selection is based upon criteria developed into a comprehensive set of
rules used to score the returns.
                                                                                                           Page 15
            The Selection of Earned Income Tax Credit Returns for Examination
                 Can Be Improved to Further Prevent Erroneous Payments

•   The ROI per return group was compared to a computed overall ROI group average to
    compute a relative ROI for each group.
•   The cost-benefit selection model used the ROI per group in assigning a desired selection rate
    per group (i.e., groups with a high ROI were assigned a large selection rate and groups with a
    low ROI were assigned a low selection rate), resulting in returns from groups with a
    relatively high ROI being selected more frequently.
Not all 168,290 returns selected for pre-refund EITC examinations by the Dependent Database
had been completed at the time of our review. To estimate the total amount of overclaims
protected ($419.6 million) by the Dependent Database selection of returns from January through
August 2002, the per group ROI obtained from our closed case analysis was applied using the
following computations:
•   Total cost to examine per group was computed as the number of examinations (per group)
    multiplied by the average cost to examine ($185.32).
•   Estimated EITC overclaims protected per group was computed as the total cost to examine
    per group multiplied by the ROI per group.
•   Total estimated EITC overclaims protected was computed as the sum of the estimated EITC
    overclaims protected per group.
Using the cost-benefit model, the Dependent Database selection of returns (168,290) was
redistributed to maximize EITC overclaims protected. The primary emphasis was selecting
returns from groups with a greater ROI. This selection resulted in estimated EITC overclaims
protected of $440.5 million and was calculated using the same computations as above.
Appendix VI provides a more detailed explanation of the cost-benefit model that was developed
using ROI analysis.




                                                                                          Page 16
            The Selection of Earned Income Tax Credit Returns for Examination
                 Can Be Improved to Further Prevent Erroneous Payments

                                                                                       Appendix V


                        The Dependent Database Scoring Program

The Dependent Database system was developed to add child custody and support data, acquired
from the Department of Health and Human Services (HHS), to the processing of individual tax
returns. The Internal Revenue Service (IRS) uses the Dependent Database scoring program to
identify and select for examination those tax returns with possible erroneous Earned Income Tax
Credit (EITC) claims. Between January and August 2002, the Dependent Database scoring
program identified approximately 2.9 million returns for possible pre-refund examination. Of
those, approximately 168,000 were selected for examination.
During initial tax return processing, all tax returns that have claimed at least one
EITC-qualifying child or dependent child are evaluated by this system. Using several data
sources, the system analyzes the return for specific criteria. These criteria are based on
characteristics that would indicate the taxpayer might not be eligible for the EITC.
There are 25 different sets of criteria used in the Dependent Database scoring program. A
numeric value is assigned to each set of criteria, and each of the 25 sets of criteria is applied to
every tax return. The Dependent Database produces an overall score for the return based on the
outcome of this analysis.
After all tax returns are scored, certain types and quantities of returns are selected for pre-refund
examinations based on IRS resources available. If a return is selected for examination, the
taxpayer’s refund is “frozen” until the examination is completed and all questionable information
is verified.
Internal and external data used in the Dependent Database scoring program include:
     •   Generalized Mainline Framework 15 – Primary file used in the Dependent Database
         that includes United States (U.S.) Individual Income Tax Return (Form 1040 series)
         information for each taxpayer.
     •   Federal Case Registry of Child Support Orders – Database created using information
         reported from state agencies and the District of Columbia to the HHS, including the
         identity of the custodial parent, the non-custodial parent, and any person who may be
         recognized as a parent, such as a legal guardian.
     •   Kidlink – Database containing information about a child’s mother and father as
         reported to the Social Security Administration (SSA).
     •   DM1 – Database containing vital statistics for the entire U.S. population as reported to
         the SSA, such as the date of birth or date of death of an individual.
     •   DUPTIN – Database containing Social Security Numbers (SSN) and their usage in the
         IRS’ tax return processing system.
                                                                                             Page 17
            The Selection of Earned Income Tax Credit Returns for Examination
                 Can Be Improved to Further Prevent Erroneous Payments

     •    National Account Profile – Database containing taxpayer-identifying information
          including a taxpayer’s SSN, name and address, and information pertaining to the
          taxpayer’s spouse.
     •    Individual Returns Transaction File – File that contains tax return information that has
          completed the IRS’ tax return processing system.
     •    Duplicate Direct Deposit – Database containing bank account information that
          associates all taxpayers that used the account for a direct deposit refund.
     •    Individual Master File On-Line – Files containing the on-line version of taxpayer
          information and tax return information.
While the primary focus of the Dependent Database process is to verify whether taxpayers that
claim children to receive the EITC are meeting residency and/or relationship requirements, other
issues are also examined. Those issues include:
      •   Duplicate claims of children (for the EITC or dependent purposes) by two or more
          taxpayers.
      •   Invalid filing status for the EITC.
      •   Deceased qualifying child or dependent.




                                                                                            Page 18
              The Selection of Earned Income Tax Credit Returns for Examination
                   Can Be Improved to Further Prevent Erroneous Payments

                                                                                                   Appendix VI


                                          Cost-Benefit Analysis

We conducted a cost-benefit1 analysis using a standard return on investment (ROI) analysis.
Standard accounting procedures define ROI as the income received divided by the investment
made. For purposes of this analysis, we defined:
     •   Income received as the amount of Earned Income Tax Credit (EITC) overclaimed by
         the taxpayer that was disallowed as a result of the examination. (Our analysis did not
         consider other tax and/or credit adjustments made in the same examinations.)
     •   Investment made as the cost of conducting an examination.
We performed this ROI analysis to determine if the Internal Revenue Service’s (IRS) Dependent
Database2 examination case selection process ensures resources are being used to provide
the greatest ROI possible. Our analysis included examinations of returns for Tax
Year (TY) 2001 that had begun between January and August 2002 and had been completed by
November 2, 2002. The details of our analysis follow.
Step 1: Conducted a closed case ROI analysis per group based on an IRS estimated average cost
per examination.3
    1. Obtained the TY 2001 Dependent Database Score (consisting of 2,874,550 returns),
       Issue, and Select Tables (168,290 returns) for all returns scored, all issues identified, and
       all returns selected for examination by August 31, 2002.
    2. Obtained examination closure data through November 2, 2002, by acquiring an
       additional Dependent Database Select Table to identify closing data for as many of
       the 168,290 examinations selected by August 31, 2002, as possible.
    3. Excluded those returns (288,831) from the total population of scored returns that would
       not have been selected for examination because of a prior account condition. The actual
       number of returns eligible for selection through the Dependent Database process was
       2,585,719.
         Of all returns selected for examination by August 31, 2002 (168,290), there were
         75,165 examinations that were completed (Audit Information Management System



1
  Cost-benefit is defined as providing the most benefit to the Federal Government at the least cost (i.e., selecting
examinations that use the least resources (costs) while protecting the most revenue).
2
  The Dependent Database is a computer system used to, among other things, identify and select for examination tax
returns with possible erroneous EITC claims. Selection is based upon criteria developed into a comprehensive set of
rules used to score the returns.
3
  The IRS currently assumes EITC Dependent Database examinations do not have a large cost variance.
                                                                                                           Page 19
           The Selection of Earned Income Tax Credit Returns for Examination
                Can Be Improved to Further Prevent Erroneous Payments

       disposal code 01-13) by November 2, 2002. The Audit Information Management System
       is an automated computer system used for examination case workload management.
   4. Stratified the returns selected for examination by rule broken or by groups of rules
      broken. Returns were categorized into 1 of 31 groups based on the types of rules broken
      (issues) and the data used to score the returns – Federal Case Registry (FCR), Dependent
      Database (DDb), and Electronic Fraud Detection System (EFDS). The groups used were:
       Multiple FCR, DDb, and EFDS rules broken.
       Multiple FCR rules broken.
       Multiple DDb rules broken.
       Multiple FCR and DDb rules broken.
       Multiple FCR and EFDS rules broken.
       Multiple DDb and EFDS rules broken.
       Each individual rule broken (25 different rules).
   5. Computed the ROI for each group of closed examinations (75,165) using the following
      method:
       a) The total examination cost to conduct examinations for a group was calculated as the
          count of examinations per group multiplied by $185.32 (the average cost of EITC
          examinations provided by the EITC Program Office).
       b) The EITC overclaims protected by group was calculated by summing the Dependent
          Database Select Table “EITC change” field for each return in the group.
       c) The ROI per group was calculated as EITC overclaims protected divided by the total
          examination cost.
Step 2: Projected total EITC overclaims protected on 75,165 TY 2001 examinations closed by
November 2, 2002, to the total number of Dependent Database examinations (168,290) selected
between January and August 2002 based on the ROI per strata obtained in Step 1.
Assumption: The results of the examinations closed after November 2, 2002, would not vary
significantly from those closed prior to November 2, 2002 (i.e., similar EITC overclaim
protected per examination).
   1. Applied the ROI per group computed in Step 1.5 above to all groups in the Dependent
      Database Select Table (168,290 stratified in Step 1.4) because not all 168,290 returns
      selected for examination by August 31, 2002, were closed by November 2, 2002.
   2. Calculated the projected total examination cost for each group by multiplying $185.32
      times the count of examinations per group.
   3. Calculated the projected EITC overclaims protected for each group by applying the
      ROI for each group to the total examination cost for each group (i.e., projected total
      examination cost for each group multiplied by the ROI for each group).


                                                                                          Page 20
            The Selection of Earned Income Tax Credit Returns for Examination
                 Can Be Improved to Further Prevent Erroneous Payments

   4. Computed the total projected EITC overclaims protected by summing the projected EITC
      overclaims protected for each group. Based on the ROI per group, the IRS model used to
      select TY 2001 EITC returns for examination (168,290 returns) would result in
      approximately $419,617,420 in EITC overclaims protected.
Step 3: Selected the TY 2001 Dependent Database examination inventory (selected prior to
August 31, 2002) based on the relative ROI for the purposes of maximizing the projected EITC
overclaims protected.
This analysis was conducted to determine the change in EITC overclaims protected if
examination case selection was based on relative ROI – selecting more returns from groups with
larger ROIs and fewer returns from groups with smaller ROIs.
Because we were not able to rescore TY 2001 returns to incorporate ROI analysis into the
point-based Dependent Database examination selection process, we opted to use an alternate
percentage-based method to select returns for examination. We are not advocating that the IRS
adopt this method; it is intended as an illustration of how incorporating ROI could change the
amount of EITC overclaims protected using the same number of resources.
Assumptions:
       •   The resource level remains the same so only 168,290 examinations can be selected.
       •   Each rule must have some amount of coverage.
       •   The results of the examinations closed after November 2, 2002, would not vary
           significantly from those closed prior to November 2, 2002 (similar EITC overclaim
           protected per examination).
   1. Computed an average ROI for all groups – The ROI per group calculated in Step 1.5 was
      summed and an average ROI for all groups was determined to be 7.68 (238.05 [sum of
      group ROIs] / 31 [the number of rule groups]).
   2. Calculated a relative ROI – Each group ROI was divided by the average ROI of 7.68 to
      determine if a group ROI was above or below the average. For example, the group of
      returns that broke FCR and EFDS rules had an ROI of 17.35. This group ROI was
      2.26 (17.35 / 7.68) times the average ROI – that means for every return selected from this
      group, the expected ROI is 2.26 times greater than that from a return selected from a
      group with an average ROI.
   3. Used the relative ROI per group (ratio to average) to redesign the selection process – The
      rule groups were judgmentally put into 6 categories from high to low relative ROI. The
      high relative ROI groups were judgmentally reassigned a high selection rate, and the low
      relative ROI groups were judgmentally reassigned a low selection rate.




                                                                                         Page 21
                The Selection of Earned Income Tax Credit Returns for Examination
                     Can Be Improved to Further Prevent Erroneous Payments

Category                             Relative ROI              Selection Rate
      1 – High                              2.26                       30.23 percent
      2 – Adjusted**                        2.00 to 2.25               Various based on available volumes
      3 – Above Average                     1.41 to 1.99               10.00 percent
      4 – Mid-Average                       1.01 to 1.40               0.5 percent
      5 – Low Average                       0.75 to 1.00               0.1 percent
      6 – Low                               below .075                 0.05 percent
           ** Some rule groups with high ROIs (category 2) that should have had a corresponding
           high selection rate had to be adjusted down because the volume of returns in the Score
           Table which were eligible to be selected was insufficient.
      4. Applied the selection rate from the categories identified in Step 3.3 to the total workload
         of 168,290 examinations for the filing season4 as a whole. For example, the multiple
         FCR and EFDS rules group had a relative ROI of 2.26, which placed it in the high
         category with a selection rate of 30 percent.
      5. Based on the revised selection count per group, computed a total cost per group by
         multiplying the number of returns selected by $185.32 (average cost per examination).
      6. Used the ROI per group from Step 1.5 and applied it to the total cost per group to obtain
         the projected EITC overclaims protected.
      7. Computed the total projected EITC overclaims protected by summing the projected EITC
         overclaims protected for each group. The selection of returns (168,290) based on the
         ROI cost-based model resulted in approximately $440,498,340 in EITC overclaims
         protected.
      8. Computed the difference in EITC overclaims protected using the IRS selection model and
         the ROI cost-based selection model.
               •    The IRS selection model projected EITC overclaims protected was
                    $419,617,420 (from Step 2.4).
               •    The ROI cost-based selection model projected EITC overclaims protected was
                    approximately $440,498,340 (from Step 3.7).
               •    The difference was $20,880,920 in projected EITC overclaims protected by
                    examination of the same number of returns (168,290) for the overall filing season.




4
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                   Page 22
The Selection of Earned Income Tax Credit Returns for Examination
     Can Be Improved to Further Prevent Erroneous Payments

                                                             Appendix VII


        Management’s Response to the Draft Report




                                                                    Page 23
The Selection of Earned Income Tax Credit Returns for Examination
     Can Be Improved to Further Prevent Erroneous Payments




                                                                    Page 24
The Selection of Earned Income Tax Credit Returns for Examination
     Can Be Improved to Further Prevent Erroneous Payments




                                                                    Page 25
